           U.S. Department of the Interior
               Office of Inspector General


             Office of the Public Auditor
              Commonwealth of the Northern
                   Mariana Islands




Evaluation of Saipan Public Health Facility
Project: Oversight of Capital Improvement
Projects, Commonwealth of the Northern Mariana
Islands

Report No. P-GR-NMI-0003-2005                June 2007
                            U.S. Department of the Interior
                                  Office of Inspector General


                              Office of the Public Auditor
                                Commonwealth of the Northern
                                     Mariana Islands


                               EVALUATION REPORT
                                                                                  June 8, 2007

The Honorable Benigno R. Fitial                  The Honorable Joseph M. Mendiola
Governor of the Commonwealth                     Senate President
 of the Northern Mariana Islands                 15th Commonwealth Legislature
Juan S. Atalig Memorial Building                 P.O. Box 500129
Isa Drive, Capitol Hill                          Saipan, MP 96950
Saipan, MP 96950

Dear Governor Fitial and Mr. Mendiola:

        The enclosed report presents the results of our evaluation of the Saipan Public
Health Facility Project (Project) by the Office of Inspector General (OIG) and the Office
of the Public Auditor for the Commonwealth of the Northern Mariana Islands (CNMI).
We conducted the evaluation in response to a request by the CNMI Legislature to
recommend appropriate action to ensure Project funds are expended in compliance with
applicable laws and regulations. In line with this request, we evaluated CNMI’s
management of the Project and identified opportunities for improved performance and
results. Because of serious management deficiencies, we also evaluated the Office of
Insular Affairs’ oversight of the Project and are issuing a separate report to the Deputy
Assistant Secretary for Insular Affairs. We did not, however, evaluate the claims filed by
Project construction contractors because Summit Consulting International (Summit),
under contract with CNMI, has reviewed these claims. CNMI is currently using the
Summit report in negotiations with Project contractors to settle contractor claims. The
scope and methodology of our review are detailed in Appendix 1 of the report.

         At $17.6 million, the Project is one of CNMI’s largest capital improvement
projects (CIP). Since its inception 6 years ago, the Project’s magnitude and scope have
changed significantly as it evolved from a hemodialysis center to a state-of-the-art health
facility. The construction contract alone increased from $5.6 million to $12.5 million,
over double the initial contract amount, and Project completion has been delayed to the
point that as of the date of this report, it has yet to be completed. Changes in the scope of
the Project are only partially responsible for the contract modifications and time delays.
Serious deficiencies in the contracting process, including the failure to adhere to
established procurement regulations and the lack of qualified and experienced officials to
administer the CIP program, significantly affected construction costs and time frames.
Some of these issues were noted in U. S. Army Corps of Engineers (Corps) reports,
issued in 2003 and 2005 (Appendix 1), but CNMI failed to use this information to
improve its contracting operations. Had CNMI used the 2003 report, for example, it
might have mitigated the problems that surfaced on the Project by establishing a strong
contracting office and using attorneys trained in procurement regulations to provide
critical guidance

        The recent downturn in CNMI’s economy has heightened our concern, as CNMI
has not identified a funding source for the estimated $5 million to $8 million needed
annually to operate the new facility. CNMI will not be able to improve the quality of
care for its sick and most vulnerable patients, including those requiring life-sustaining
hemodialysis, without a fully functioning facility. We made four recommendations to
help CNMI better manage the contracting process. We believe that implementation of
these recommendations can help CNMI minimize contract costs and delays on future
CIPs.

       In your March 6, 2007 response to our draft report (Appendix 4), you concurred
with Recommendations 1, 2, and 3 and directed the Office of the Attorney General, in
conjunction with the Secretary of Finance, to take the lead and implement our
recommendations within 120 days. Based on the response, we consider these
recommendations to be resolved but not implemented. Your response did not address
Recommendation 4, and, as such, we consider this recommendation to be unresolved.
The status of our recommendations is shown in Appendix 5.

        The legislation, as amended, creating the OIG requires that we report to Congress
semiannually on all audit reports issued, the monetary effect of audit findings, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. See Appendix 2 for the monetary impact of the findings in this report.

        Please provide a response to Recommendation 4 by July 13, 2007. Your response
should state concurrence or nonconcurrence with the recommendation and provide the
information requested in Appendix 5. Please address your response to Mr. Kevin Graves,
Acting Field Supervisor, Honolulu Field Office, 2800 Cottage Way, Suite E-2712,
Sacramento, California 95825. We appreciate the cooperation shown by the CNMI
government during our evaluation. If you have any questions regarding this report,
please call me at (202) 208-5745 or Mr. Sablan at (670) 322-6481.

               Sincerely,



               ______________________                _______________________
               Earl E. Devaney                       Michael S. Sablan
               Inspector General                     Public Auditor, CNMI
Enclosure

cc: David B. Cohen, Deputy Assistant Secretary for Insular Affairs
    Nikolao Pula, Director, Office of Insular Affairs
    Marina Tinitali, Audit Liaison Officer, Office of Insular Affairs
                                            2
Contents
                                                                                                                              Page

Project History .....................................................................................................................1

Results of Evaluation: Strong Contracting Office Needed to Manage All Capital
Improvement Projects ..........................................................................................................3
  CNMI Failed in Key Areas of Contracting Process........................................................3
  Strong Contracting Office Essential .............................................................................11

Recommendations..............................................................................................................13
  Governor’s Response and OIG Reply...........................................................................14

Appendices
    1    Objective, Scope, and Methodology................................................................15
    2    Monetary Impact..............................................................................................17
    3    Project Offices, Organizations, and Responsibilities.......................................18
    4    CNMI Government Response .........................................................................19
    5    Status of Recommendations ............................................................................20




Acronyms
A&E ...................................................................................... Architectural and Engineering
AIC...........................................................................................................AIC Marianas, Inc.
CIP .......................................................................................... Capital Improvement Project
CNMI .......................................................Commonwealth of the Northern Mariana Islands
COTR.........................................................Contracting Officer’s Technical Representative
DPW............................................................................ Department of Public Works, CNMI
IGE.................................................................................Independent Government Estimate
OIA .................................................... Office of Insular Affairs, Department of the Interior
OIG ............................................... Office of Inspector General, Department of the Interior
SSFM ..............................................................................................SSFM International, Inc.




                                                                  i
Project History
                  The Commonwealth of the Northern Mariana Islands
                  (CNMI) is a self-governing Commonwealth of the United
                  States located about 3,300 miles west of Hawaii. CNMI
                  consists of 14 islands, with a total land area of 183.5 square
                  miles and a population of about 70,000. The principal
                  inhabited islands are Saipan, Rota, and Tinian.




                                              Map of Pacific Islands
                                                           Figure 1
                                          Source: www.maps-pacific.com
                                           (CNMI reference added by OIG)

                  The Secretary of the Department of Finance, who is
                  responsible for procurement and supply functions for the
                  CNMI Government, has delegated procurement authority for
                  capital improvement projects (CIP) to the Secretary of the
                  Department of Public Works (DPW). To ensure the efficient
                  functioning of the CIP contracting process, DPW is
                  responsible for (1) reviewing specifications and statements of
                  work to ensure compliance with procurement principles,
                  (2) incorporating required provisions in contracts,
                  (3) negotiating a fair and reasonable contract price,
                  (4) modifying contracts to incorporate changes, and
                  (5) enforcing contract provisions.

                  At $17.6 million, the Saipan Public Health Facility Project is
                  one of CNMI’s largest CIPs, with 50 percent of the funding
                  ($8.8 million) provided by the Office of Insular Affairs
                  (OIA) and 50 percent by CNMI. The Project is the first
                  expansion of the Commonwealth Health Center (Center) in
                  about 18 years. Constructed in the mid-1980s on the island
                  of Saipan, the Center was geared for a population of 35,000.
                  Population on the island today is about 62,000.


                                  1
                                 Based on funding available at the time, the Project was
                                 initially conceived as a hemodialysis center.1 DPW awarded
                                 an architectural and engineering (A&E) contract to Leo A.
                                 Daly Company to design the Project in October 2000 and a
                                 firm, fixed-price construction contract for $5.6 million to
                                 AIC Marianas, Inc. (AIC), in June 2002. Project completion
                                 was scheduled for August 2004. To help oversee the Project,
                                 CNMI awarded contracts to N. Stanley Good, P.E. dba
                                 Azuma Limited (Azuma) and SSFM International, Inc.
                                 (SSFM), for construction management services. Project
                                 offices, organizations, and responsibilities are shown in
                                 Appendix 3.

                                 As funding increased, the Project evolved into a two-tiered,
                                 state-of-the-art health facility, with the hemodialysis center
                                 on the upper level and executive and administrative offices,
                                 bio-terrorism center, and a 10,000 square-foot medical
                                 warehouse room on the lower level. A key benefit of the
                                 expanded facility was a larger hemodialysis unit. With
                                 29 stations, more than double the stations now available at
                                 the Center, hemodialysis patients can receive life-sustaining
                                 treatment at reasonable hours of the day. To accommodate
                                 its patient workload, the existing hemodialysis center
                                 operates 24 hours a day, 7 days a week. In January 2004, a
                                 second A&E contract was awarded to Taniguchi Ruth
                                 Architects (Taniguchi) to re-design the expanded Project.

                                 As construction began, CNMI encountered design problems
                                 which were not resolved by the initial design firm. CNMI
                                 modified the Taniguchi contract to re-work portions of the
                                 design. The re-work resulted in alleged Project delays and in
                                 $855,535 in claims filed by AIC and its subcontractor for
                                 design delays, changes and disruptions. Summit Consulting
                                 International (Summit), under contract with CNMI, reviewed
                                 these claims, recommended payment of $267,222, and
                                 questioned $588,313. CNMI is currently using the Summit
                                 report in negotiations with Project contractors.

                                 In November 2004, the CNMI Legislature, concerned about
                                 cost overruns and delays, asked us to evaluate the Project, a
                                 review that we undertook in cooperation with CNMI’s Office
                                 of the Public Auditor.


1
  Hemodialysis, the most frequently prescribed type of dialysis treatment for patients suffering from kidney
failure, involves use of a special filter called a dialyzer or artificial kidney to clean the blood. Most
hemodialysis patients require treatment three times a week and an average of 3 hours per dialysis “run.”


                                                     2
 Results of Evaluation:
 Strong Contracting Office Needed to Manage All
 Capital Improvement Projects

                           The lack of a strong contracting office impeded construction
                           of the Project from the start. As CNMI’s CIP Contracting
                           Office, DPW lacked the contracting expertise, such as a
                           qualified and experienced contracting officer and cost-price
                           analyst, to plan and administer the Project. The costly
                           modifications and delays experienced by the Project as it
                           evolved increased initial contract awards by over $7 million
                           and delayed Project completion. As shown on Figure 2, the
                           construction contract alone increased from $5.6 million to
                           $12.5 million.

                                                                       Construction Contract Costs

                     $14,000,000
                                                                                                                                              $12.5 M

                     $12,000,000                                                                                            $11.5 M

                     $10,000,000

                      $8,000,000                                                              $6.9 M
                                                                                                                      $7.8 M
                                                           $5.9 M
                      $6,000,000                                                $6 M
                                        $5.6 M
                      $4,000,000

                      $2,000,000
                                                                                                                                  AIC Construction
                                   $0
                                                              3




                                                                                                  4




                                                                                                                    4




                                                                                                                                      5




                                                                                                                                                        6
                                                                               03
                                          02




                                                            /0




                                                                                                /0




                                                                                                                  /0




                                                                                                                                    /0




                                                                                                                                                      /0
                                                                             0/
                                        6/



                                                          -5




                                                                                              -4




                                                                                                                -8




                                                                                                                                  -3




                                                                                                                                                    -1
                                                                           -1
                                       -



                                                     #1




                                                                                         #3




                                                                                                           #4




                                                                                                                             #5




                                                                                                                                               #6
                                    ct




                                                                      #2
                                tra




                                                                                          n




                                                                                                                              n




                                                                                                                                                n
                                                      n




                                                                                                            n
                                                                       n



                                                                                      tio




                                                                                                                          tio




                                                                                                                                            tio
                                                  tio




                                                                                                        tio
                              on




                                                                   tio



                                                                                   ca




                                                                                                                       ca




                                                                                                                                         ca
                                               ca




                                                                                                     ca
                               C




                                                                ca
                                           if i




                                                                               if i




                                                                                                 if i




                                                                                                                   if i




                                                                                                                                     if i
                            al




                                                            if i
                                         od




                                                                             od




                                                                                               od




                                                                                                                 od




                                                                                                                                   od
                          in




                                                          od
                       rig




                                        M




                                                                            M




                                                                                              M




                                                                                                                M




                                                                                                                                  M
                                                          M
                     O




                                                                                                                                             Figure 2

                           We believe strong contracting office planning and
CNMI Failed in             administration could have mitigated the cost overrun and
Key Areas of               delay problems that surfaced on this Project and ensured
Contracting                compliance with CNMI’s procurement regulations. Our
Process                    evaluation identified significant weaknesses in CNMI’s
                           contracting process. Specifically, CNMI officials failed to
                           ensure that (1) contractor proposals were properly evaluated
                           and negotiated, (2) A&E contracts included key provisions to
                           protect government interests, (3) contract modifications were
                           justified and reasonably priced, (4) contractor
                           nonperformance was documented and appropriate corrective



                                                                  3
action taken, and (5) costs were properly allocated to the
Project.

Evaluation and Negotiation of Contractor
Proposals Were Inadequate
The failure of CNMI contracting officials to comply with
procurement regulations seriously compromised the
evaluation and negotiation of Project contractor proposals. It
is CNMI’s policy to negotiate contracts for a fair and
reasonable price based on demonstrated contractor
competence and qualifications. The general process for
negotiated contracts is outlined in Figure 3 on page 5.

Deficient Proposal Evaluations. CNMI did not adhere to its
procurement regulations involving contractor selection for
the two A&E contracts and the Summit contract. To ensure
selection of the best contractor, the evaluation process
requires (1) qualified evaluators, (2) written evaluation
instructions, (3) independent government estimates (IGEs),
and (4) oversight by an experienced contracting officer. We
found CNMI lacking in all these areas.

Under CNMI regulations, the evaluation team documents the
selection decision by assessing the comparative strengths,
weaknesses, and risks of each offeror’s proposal in terms of
the evaluation factors in the solicitation. Our analysis
showed that the evaluation team included only numerical
scores with minimal comments to support the scores. The
scoring system used by the Summit evaluation team was
inconsistent; one evaluator, for example, used a one to five
scoring system, while a second evaluator used a zero to one
scoring system. As a result of deficiencies in proposal
evaluations, the contractors selected for the A&E and delayed
claim contracts may not have been the best qualified firm.




                4


   Develop contract requirement.


   Prepare IGE to determine what the contract should cost.
    The IGE is developed independently without contractor
    influence, based on the proposed scope of work and
    historical costs.



   Ensure sufficient funds are available.


        
        
         Conduct market research to determine best method of
          acquiring goods and services.

        
        
         Develop acquisition plan to identify key milestones in the
          acquisition process and address significant technical,
          management, or other considerations.

        
        
         Develop source selection plan.


                 
                 
                  Issue solicitation.
                 
                 
                  Conduct contractor site visits.
                 
                 
                  Convene selection team of qualified personnel and
                   provide team with an evaluation plan that includes, at a
                   minimum, (1) statement of evaluation factors and their
                   relative importance, (2) evaluation process methodology
                   and techniques to be used, and (3) documentation
                   requirements.


                          
                          
                           Evaluate proposals.
                          
                          
                           Conduct discussions and negotiations.
                          
                          
                           Prepare post-negotiation memorandum to document the
                            rationale for selecting and awarding the contract and
                            determining reasonability of price.


                                    
                                    
                                     Award Contract.
                                    
                                    
                                     Monitor contractor performance.
                                    
                                    
                                     Close out contract.




                                                         General Process for Negotiated Contracts
                                                                                         Figure 3




                                                       5
Poor Negotiation Practices. CNMI did not ensure that
contracts, including modifications, were negotiated for a
reasonable price, as required by regulations. Specifically, the
regulations outline the following types of information that
must be reviewed and evaluated when determining price
reasonability: (1) the IGE, (2) cost information in sufficient
detail to support and justify the contract, and (3) cost
information for similar services. CNMI officials stated that
A&E contracts were awarded based solely on the contractor’s
proposed price absent any price or cost analysis or
negotiations. CNMI did not develop an IGE or require the
contractors to submit a detailed proposal that included a cost
breakdown by labor category, labor hours, labor rates,
overhead, and profit. Without an IGE and contractor cost
breakdown, CNMI could not compare labor hours with labor
hours of similar projects, labor rates with labor rate surveys
and contractor payroll records, and overhead rates with
contractor financial records to determine the reasonability of
proposed rates and negotiate a reasonable contract price.

Design Contracts Deficient
As Project construction began, DPW officials and the initial
design firm worked to resolve design issues. However, DPW
officials said that as the Project moved further along, the firm
failed to respond to DPW’s numerous requests for
information and a key principal of the design team was no
longer involved with the Project. Alleged design problems
began to surface, and the second A&E firm’s scope of work
was modified to correct design problems. At the same time,
CNMI hired the U.S. Army Corps of Engineers (Corps) to
independently assess the Project’s design. The Corps’ report
included an exhaustive list of technical comments on the
initial Project design. For example:

      New site work items, such as roads and parking,
       were incomplete or not shown.

      Building finished floor was shown with no possible
       way for adjacent areas to connect to it.

      Grading was incorrect.

According to a Corps’ official, the absence of key provisions
was instrumental in CNMI’s inability to resolve alleged
design deficiencies with the initial A&E firm. Our
evaluation, confirmed by the Corps’ report, revealed that


                6
CNMI’s A&E contracts lacked key standard provisions
usually found in federal government contracts to ensure the
professional quality of designs, drawings, specifications, and
other services furnished by a contractor. Unfortunately,
CNMI uses the same A&E template for all of its CIPs. As a
result of CNMI’s failure to involve attorneys experienced in
procurement, provisions such as those shown in Figure 4
were not included in the contract.


                Responsibility of the Contractor
 The Contractor shall be responsible for the professional quality,
 technical accuracy, and coordination of all designs, drawings,
 specifications, and other services furnished by the Contractor under the
 contract. The Contractor shall, without additional compensation, correct
 or revise any errors or deficiencies in its designs, drawings,
 specifications, and other services (Federal Acquisition
 Regulation 52.236-23).*
 * To further protect its interest, CNMI should add a time frame to this
 provision for correcting deficiencies



                 Substitutions of Key Personnel
 The Contractor shall provide complete resumes for proposed
 substitutes and any additional information requested by the Contracting
 Officer. Proposed substitutes should have comparable qualifications to
 those of the persons being replaced. The Contracting Officer will notify
 the Contractor within 15 days after receipt of the required information of
 the consent of the substitutes. No change in fixed prices may occur as
 a result of key personnel substitution (Naval Facilities Command
 (NAVFAC) 52.52.237-9301).



                                                                Figure 4

Contract Modifications Were Not Managed
Effectively
CNMI management of contract modifications for the Project
was also poor. For example, CNMI did not ensure
modifications for sole source procurements were justified,
reasonably priced, and processed timely, as required by
procurement regulations. Effective management of contract
modifications is critical, as modifications can significantly
increase the cost and duration of a project.

Unsupported Sole Source Procurements. CNMI
procurement regulations are designed to promote full and
open competition to help ensure the best product or service is
obtained at the lowest possible price. In line with these
regulations, CNMI awarded the basic contracts for the
Project competitively. However, it issued contract


                  7
                                  modifications to an incumbent contractor without
                                  competition when it should have solicited new bids/contracts.
                                  The initial Project plans focused on a fully operational
                                  hemodialysis center on the upper level and did not include
                                  the completion of the lower level for executive offices and
                                  clinics. Examples of lower level items included:

                                   Architectural drawings for interior spaces ($681,600).

                                   Additional elevator for lower level ($110,700).

                                   Additional electrical work for lower level ($398,500).

                                  CNMI contract modifications for these requirements
                                  amounted to sole source procurement without a valid reason.

                                  Inadequate Price or Cost Analysis. CNMI did not conduct
                                  price or cost analyses2 to determine the reasonability of
                                  contract modifications and use the analyses in price
                                  negotiations. In our opinion, had CNMI conducted such
                                  analyses for the following modifications, it may have saved
                                  significant costs:

                                   Air-Conditioning Equipment - In developing the initial
                                    bid, AIC followed the standard contracting practice of
                                    soliciting quotes for air-conditioning installation from
                                    multiple vendors and selected the lowest priced
                                    responsible bidder. However, when CNMI revised the
                                    specifications prior to installation and requested AIC to
                                    submit a new price proposal, AIC requested only the
                                    selected vendor to submit a quote rather than seeking
                                    multiple quotes. CNMI eventually approved the
                                    modification for $2,085,481 ($503,151 more than its
                                    engineering estimate). A CNMI official could not
                                    provide a valid explanation or post-negotiation
                                    documents to explain this significant difference.

                                   Construction Management Services - The original
                                    management services contract was competitively bid and
                                    awarded to SSFM. However, CNMI did not conduct a
                                    price or cost analysis or develop an IGE to ensure that
                                    modifications to extend the contract were reasonably

2
  A price analysis evaluates and compares a contractor’s proposed price with (1) the IGE, (2) other prices
received in response to the solicitation, (3) commercial prices, or (4) previous prices proposed for the same
or similar items. A cost analysis analyzes each element of cost in the contractor’s proposal and is usually
required if a price analysis alone is insufficient to determine reasonability of a proposed price.


                                                      8
                                        priced. CNMI approved a modification for $186,840 to
                                        extend services for 1 year and was in the process of
                                        approving a second modification for $186,840 for an
                                        additional 1-year extension at the time of our review.
                                        The modification prices were based upon SSFM’s initial
                                        award. Although CNMI could have negotiated a
                                        substantially reduced cost for these modifications based
                                        on (1) the expected decline of SSFM’s involvement in the
                                        Project as it neared completion3 and (2) SSFM’s
                                        noncompliance with the provisions of the contract, as
                                        discussed in the following section, it did not do so. In
                                        addition, despite CNMI procurement regulations
                                        prohibiting agencies from allowing contractors to work
                                        with an expired contract, SSFM was allowed to do so
                                        from August 2005 until at least December 2005.

                                    Action Was Not Taken to Address Contractor
                                    Nonperformance
                                    CNMI failed to adequately monitor SSFM’s performance to
                                    ensure compliance with contract terms. CNMI awarded a
                                    firm, fixed-price contract to SSFM for project construction
                                    management based on SSFM’s technical proposal that it had
                                    qualified and experienced staff to perform the required tasks
                                    and deliverables. These tasks and deliverables included
                                    development of IGEs for contract modifications and analyses
                                    of contractor delay claims. Despite SSFM’s failure to
                                    comply with these requirements, CNMI took no action to
                                    recover costs from SSFM. CNMI’s only reaction to SSFM’s
                                    nonperformance was to award a $45,000 fixed-price contract
                                    to Summit to analyze construction delay claims that were
                                    within the scope of the SSFM contract. As of November
                                    2005, CNMI had not taken any action against SSFM to
                                    recoup monies for nonperformance.

                                    Evaluating and documenting contractor performance is a
                                    critical contracting best practice. Documentation of
                                    deficiencies is vital in seeking corrective actions, including
                                    contract deductions and termination. In addition, a
                                    contractor’s past performance is a key factor in the contractor
                                    evaluation process. Federal agencies are required to maintain
                                    a contractor performance database that includes the
                                    contractor’s track record in conforming to contract
                                    requirements, schedules, budgets, and standards of good
                                    workmanship and demonstrating a commitment to customer

3
    SSFM had only one inspector at the construction site on a periodic basis.


                                                       9
                                    satisfaction. CNMI does not have such a database, even
                                    though the Corps’ 2003 report recommended that CNMI
                                    establish one. A contractor performance database would
                                    better enable CNMI to evaluate future contract proposals.

                                    Contract Costs Were Improperly Allocated
                                    CNMI did not establish procedures to ensure that project
                                    management contract costs were properly allocated to
                                    projects. The Project was funded by an OIA-administered
                                    grant and is subject to Office of Management and Budget
                                    Circular A-87 “Cost Principles for State, Local, and Indian
                                    Tribal Governments,” which states that costs are allocable to
                                    a grant or contract in line with the relative benefits received.
                                    CNMI failed to comply with this provision. The Azuma
                                    contractor was responsible for managing several projects for
                                    CNMI. However CNMI improperly charged the entire
                                    $273,600 to the Project instead of allocating the costs to all
                                    benefiting projects proportionate to the benefits received and,
                                    as a result, overcharged the Project by about $103,6804 over
                                    the 2-year period ending June 2005 (see Figure 5).


                                                        PROJECT MANAGEMENT COSTS
                                                         Item               Claimed      Questioned
                                                Original Contract            $86,400        $34,560
                                                Modification 1, 2 and 3     $187,200        $69,120
                                                         Totals             $273,600        $103,680

                                                                                            Figure 5

                                    Proprietary Information Was Not Safeguarded
                                    CNMI did not ensure that contractor proprietary information
                                    was adequately safeguarded against unauthorized use and
                                    disclosure. During the evaluation process, government
                                    employees analyze contractor proposals, which include
                                    privileged or confidential information, such as cost
                                    breakdown; direct labor rates; overhead rates; profit margins;
                                    trade secrets; and manufacturing processes, operations, and
                                    techniques. Release of this information could result in
                                    competitive harm to the contractor or impair the
                                    government’s ability to obtain like information in the future.
                                    The importance of safeguarding proprietary information is
                                    such that the federal government enacted government-wide
                                    legislation stipulating civil and criminal penalties for
4
    Based on time estimates spent on the respective projects, as provided by an Azuma official.


                                                      10
                                    unauthorized disclosure and use of such information.
                                    Although we did not find instances of unauthorized
                                    disclosure and use, CNMI did not have adequate control over
                                    contractor proposals and was, in fact, unable to locate all
                                    contractor proposals submitted for the Project.

                                    The lack of a strong contracting office is the root cause for
Strong                              deficiencies identified in CNMI’s contract management. The
Contracting                         federal government has long recognized the importance of
Office Essential                    developing a highly skilled professional acquisition
                                    workforce. Studies conducted in the 1970s resulted in
                                    improved management of the acquisition workforce and the
                                    passage of key legislation. In 1990, for example, the Defense
                                    Acquisition Workforce Improvement Act established
                                    education, training, and experience requirements for the
                                    Department of Defense. The 1996 Clinger-Cohen Act
                                    established comparable requirements for civilian agencies.
                                    As a result, contracting officials in federal agencies today are
                                    required to meet education and experience requirements and
                                    undergo a rigorous and extensive training program, including
                                    continuing education requirements to maintain or enhance
                                    their skills. For example, requirements for a Level II5
                                    Contracting Officer are listed in Figure 6.


                                            CONTRACTING OFFICER LEVEL II REQUIREMENTS
                                              Education             Experience            Training
                                         Baccalaureate Degree        Two years of       Contracting
                                                                     contracting
                                         Minimum of 24               experience         Contract Pricing
                                         semester hours including
                                         accounting, business,                          Government
                                         law, finance, contracts,                       Contract Law
                                         purchasing, and
                                         industrial management

                                                                                                Figure 6

                                    Key contracting officials in CNMI, however, are political
                                    appointees and often lack the contracting expertise to plan
                                    and administer CIP projects. In this case, DPW did not have
                                    a qualified and experienced contracting officer or cost-price
                                    analyst to plan and administer the Project. The practice of
                                    using political appointees also results in the lack of continuity
                                    for complex long-term CIPs, such as this Project. In 2006,

5
    Level II normally provides signature authority for acquisitions up to $5 million.


                                                        11
                             for example, CNMI elected a new administration, and the
                             Project’s contracting officer and contracting officer’s
                             technical representative (COTR), both political appointees,
                             subsequently resigned. Political appointments may also
                             result in the selection of individuals who may not be the best
                             qualified for the position. Both the contracting officer and
                             COTR positions are critical in developing a strong
                             contracting office and ideally should be filled by individuals
                             who have permanent status and meet requirements
                             comparable to their federal counterparts. In addition, the
                             contracting officer should be assisted by an experienced cost-
                             price analyst and other key advisors, as illustrated in
                             Figure 7.


                                         Contracting Officer

                                    ¾ Ensures Government                                      Legal Counsel*
                                      obtains value in contracts.                         ¾ Advises contracting
                                    ¾ Ensures compliance with                               officer on contracting
                                      contract terms.                                       matters.
                                    ¾ Safeguards Government’s                             ¾ Reviews solicitations
                                      interest.                                             and awards for legal
                                                                                            sufficiency.
            COTR*
    ¾ Conducts analysis                                              Project Manager
      of contractor’s                                               ¾ Oversees and
      technical proposal.                                             monitors entire
    ¾ Monitors technical                                              project to ensure
      aspect of contracts.                                            contract
                                           Cost-Price                 deliverables are
                                           Analyst                    met.
                                   ¾ Conducts analysis of
                                     contractor’s price
                                     proposal using price
                                     and cost analysis
                                     techniques.



*Provided, as needed, from departmental offices.


                                                              Key Advisors to Contracting Officer
                                                                                        Figure 7

                             Although CNMI has launched initiatives to improve CIP
                             management in the past, these initiatives were not enough.
                             Like its federal counterparts, CNMI needs top-level
                             commitment to develop a contracting office with highly
                             skilled contracting professionals, capable of effectively
                             managing large-scale CIPs if CNMI is to fulfill development
                             goals and maintain financial support for infrastructure
                             improvements.




                                                   12
Recommendations

            We recommend that the Governor of the Commonwealth of
            the Northern Mariana Islands:

               1. Develop a contracting office with highly skilled
                  professionals, along the lines of federal requirements,
                  who are capable of effectively managing large-scale
                  CIPs.

               2. Use the Federal Acquisition Regulation as the
                  framework to identify best practices and the general
                  framework for revising A&E contracts.

               3. Direct contracting officials to comply with existing
                  grant and procurement regulations, specifically, to:

                      ¾ Use full and open competition to the fullest
                        extent possible.

                      ¾ Develop and use IGEs as a baseline for
                        negotiating a fair and reasonable price for
                        goods and services and ensuring contractors
                        clearly understand contract requirements.

                      ¾ Document the contract and modification price
                        reasonability determination.

                      ¾ Select the best qualified contractor by
                        ensuring the evaluation team is 1)
                        knowledgeable and qualified, 2) provided
                        written evaluation instructions, and 3) under
                        the supervision of an experienced contracting
                        officer.

                      ¾ Allocate costs to projects based on benefits
                        received.

                      ¾ Safeguard proprietary information.

               4. Establish and maintain a CNMI-wide contractor
                  performance evaluation database to assist with the
                  evaluation process and document and take appropriate
                  corrective actions for contractor nonperformance.



                           13
               In his March 6, 2007 response to our draft report
Governor’s     (Appendix 4), the Governor concurred with
Response and   Recommendations 1, 2, and 3 and directed the Office of the
               Attorney General, in conjunction with the Secretary of
OIG Reply
               Finance, to take the lead in implementing the
               recommendations within 120 days. The Governor stated that
               “full compliance will be contingent on the availability of
               funding required to establish the contracting official
               position,” but also stated that preliminary discussions with
               the Office of Insular Affairs “has indicated willingness to
               provide the necessary funding.” Based on the response, we
               consider these recommendations to be resolved but not
               implemented and will follow up with the Office of Attorney
               General after the 120-day implementation time frame.

               The Governor’s response did not address Recommendation 4.
               As such, we request that the Governor respond to the
               recommendation and provide the information requested in
               Appendix 5.




                              14
Appendix 1
Objective, Scope, and Methodology

              Our objective was to evaluate CNMI’s management of the
              Project and identify opportunities for improved performance
              and results. Because of significant management deficiencies,
              we also evaluated OIA’s oversight of the Project. We
              conducted the on-site (fieldwork) portion of our evaluation
              from November 2005 through March 2006. Our evaluation
              was conducted in accordance with the January 2005, Quality
              Standards for Inspections, issued by the President’s Council
              on Integrity and Efficiency. To accomplish our objective,
              we:

               Reviewed CNMI procurement regulations, public laws,
                grant documents, contract documents, financial and
                progress reports, Corps’ reports, and the Summit report.

               Interviewed CNMI officials, staff, and contractors.

               Reviewed the Department of the Interior’s Fiscal Year
                2005 Performance and Accountability Report, including
                information required by the Federal Manager’s Financial
                Integrity Act. The Department reported the need to
                increase economic self-sufficiency for insular areas and
                address persistent management problems in these
                programs.

               Reviewed internal controls and identified weaknesses
                relating to Project management and identified
                opportunities for improved performance and results.

              We did not evaluate the Project’s initial A&E firm’s
              compliance with contract terms because the Corps, under
              contract with CNMI, had conducted a comprehensive
              evaluation of the Project design that included coverage of this
              area. We also did not evaluate the claims filed by Project
              construction contractors because Summit, under contract with
              CNMI, had reviewed these claims. CNMI is currently using
              the Summit report in negotiations with Project contractors to
              settle the claims.

              During the past 5 years, neither OIG nor the Government
              Accountability Office has issued any procurement reports on
              the CNMI Government. However, a 2003 OIG report on the


                             15
                                Commonwealth Ports Authority’s Saipan Harbor Project6
                                identified significant weaknesses in project management.
                                Specifically, the Authority (1) did not adequately analyze or
                                justify contract change orders and incurred contract cost
                                overruns totaling $6.9 million, (2) entered into a
                                noncompetitive contract for construction management
                                services, and (3) improperly used liquidated damages of
                                $980,000 from the Saipan Harbor Project for a project on
                                Rota.

                                A 2003 OIG report to the Office of Insular Affairs on grant
                                administration7 addressed the need for improved monitoring
                                of grants to insular areas. In addition, the following reviews
                                conducted by other entities are relevant to the Project:

                                 U.S. Army Corps of Engineers, Honolulu District:
                                  Review of the Operation and Management of the Capital
                                  Improvement Program for the Commonwealth of the
                                  Northern Mariana Islands, March 2003. The report
                                  identified significant shortcomings that hindered efficient
                                  and effective management of projects. These
                                  shortcomings included (1) lack of a dedicated project
                                  team, (2) absence of a contractor performance evaluation
                                  database, and (3) conflicting procurement regulations.

                                 U.S. Army Corps of Engineers, Honolulu Engineer
                                  District: Evaluation of the Design of the Public Health
                                  Building, Saipan, Commonwealth of the Northern
                                  Mariana Islands, August 2005. The report identified
                                  serious deficiencies in A&E contracting procedures for
                                  the Project. It also identified the need for a strong
                                  contracting office.

                                 Summit Consulting International: CNMI Public Health
                                  Center – Change Order Audit and Analysis, June 2005.
                                  The report provided the results of Summit’s analysis of
                                  the $855,535 in delay claims submitted by AIC and its
                                  subcontractor for alleged Project design delays,
                                  disruptions, and changes. Summit questioned $588,313
                                  of the claimed amount.



6
  OIG: Commonwealth Ports Authority - Saipan Harbor Improvement Project, Report No. 2003-I-0073,
September 2003.
7
  OIG: Report on Grants Administered by the Office of Insular Affairs, Report No. 2003-I-0071, September
2003.


                                                  16
Appendix 2
Monetary Impact


                     Finding Areas           Questioned
                                               Costs

         Installation of Air Conditioning     $ 503,151

         SSFM Deduction for                     45,000
         Nonperformance

         Allocation of Project Management      103,680
         Contract Costs

         Construction Delay Claim               588,313

             Total                           $1,240,144




                                        17
Appendix 3
Project Offices, Organizations, and
Responsibilities



      OIA                                            CNMI Government
  Headquarters
                                                                                                                 Summit
                                                        Secretary, DPW                                            $45,000
   OIA Field Office,                                   CIP Contracting Officer                                   Consultant
        CNMI                           DPW Technical Services Division Director                          Analyze Project Delay Claims
   Field Representative                                      CIP COTR
            &
   Systems Accountant

                                                              Azuma
                                                              $172,800
                                                           Project Manager



                          Leo A. Daly Company                                Taniguchi Ruth Architects
                                 $787,000                                             $953,900
                              A&E Contractor                                        A&E Contractor
                            Design Initial Project                                 Re-design Project



                                                               SSFM
                                                              $453,200
                                                    Project Construction Manager
                                   ¾   Monitor and inspect project construction.
                                   ¾   Prepare IGE.
                                   ¾   Analyze contractor change order proposal and recommend
                                       approval or disapproval.
                                   ¾   Review contractor request for progress payment and
                                       recommend approval or disapproval.




                                                                AIC
                                                             $12,517,000
                                                      Project General Contractor




                                                          18
Appendix 4
CNMI Government Response




                    19
Appendix 5
Status of Recommendations


 Recommendations       Status            Action Required

     1, 2, and 3       Resolved      We will follow up with the
                   Not Implemented   Office of the Attorney
                                     General after the 120-day
                                     implementation time frame.



         4           Unresolved      If you concur with the
                                     recommendation, please
                                     provide a plan of action that
                                     includes target dates and
                                     the titles of the officials
                                     responsible for
                                     implementing corrective
                                     action.

                                     If you do not concur, please
                                     state the reason for
                                     nonconcurrence and
                                     provide a plan of action that
                                     includes alternative
                                     corrective action and target
                                     dates for addressing the
                                     underlying deficiencies.




                           20
